OFFICE OF INSPECTOR GENERAL 

for the Millennium Challenge Corporation




AUDIT OF COMPLIANCE
WITH PROCUREMENT
REQUIREMENTS BY THE
MILLENNIUM CHALLENGE
CORPORATION AND ITS
COMPACT COUNTRIES
AUDIT REPORT NO. M-000-008-02-P
March 3, 2008




WASHINGTON, DC

Office of Inspector General
    for the
Millennium Challenge Corporation



March 3, 2008


The Honorable John J. Danilovich
Chief Executive Officer
Millennium Challenge Corporation
875 Fifteenth Street, N.W.
Washington, DC 20005

Dear Mr. Ambassador:

This letter transmits the Office of Inspector General’s final report on the Audit of Compliance
with Procurement Requirements by the Millennium Challenge Corporation and its Compact
Countries. In finalizing the report, we considered your written comments on our draft report and
included those comments in their entirety in Appendix II of this report.

The report contains five recommendations for corrective action.   We consider that a
management decision has been reached on all of the recommendations. Final action for the
recommendations must be determined by MCC and we ask that we be notified of the MCC’s
actions.

Sincerely,

/s/
John M. Phee
Assistant Inspector General
Millennium Challenge Corporation




U.S. Agency for International Development
1300 Pennsylvania Avenue
Washington, DC 20523
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 3 


Audit Objective .................................................................................................................. 4 


Audit Findings ................................................................................................................. 5 


Contractor Vetting Process Should Be Improved.............................................................. 5 


MCC Criteria for Vetting of Contractors Should Be 

Consistent ......................................................................................................................... 8 


MCC Should Evaluate the Need for Procurement 

Operations Manuals .......................................................................................................... 9 


Evaluation of Management Comments ....................................................................... 11 


Appendix I – Scope and Methodology ........................................................................ 13 


Appendix II – Management Comments ....................................................................... 15 


Appendix III – List of Contracts ................................................................................... 19 

SUMMARY OF RESULTS

This audit was conducted to determine whether the Millennium Challenge Corporation
(MCC) and select Compact country Millennium Challenge Accounts (MCAs) complied
with procurement requirements, specifically MCC’s Program Procurement
Guidelines/Procurement Agreement which govern the MCAs procurement operations.
These guidelines define MCC’s requirements for procurement based on MCC’s
principals of transparency and open competition and for contractor eligibility to receive
MCA contracts based upon U.S. Federal Government and World Bank requirements.
The aim of the contractor eligibility requirements is to prevent the award of contracts to
firms or individuals associated with fraud, corruption, or terrorism by vetting potential
contractors against ineligibility lists maintained by these organizations.

The three MCAs included in the Office of Inspector General’s (OIG) site visits (Ghana,
Armenia, and Honduras) complied with the selected key procurement provisions from
MCC’s Program Procurement Guidelines/Procurement Agreement by advertising bidding
opportunities, issuing requests for proposals, conducting independent evaluation of the
proposals, and documenting contracting actions. However, while each of the MCAs was
aware of MCC contractor eligibility guidance, the MCAs only partially complied with the
guidance. For instance, the MCAs could not satisfactorily demonstrate that each
contractor selected by the OIG for review had been vetted against each of the sources
listed in the MCC Program Procurement Guidelines/Procurement Agreement. At the
time of our audit, MCC did not have in place a comprehensive written policy and
procedures for determining contractor eligibility for use by the MCAs; the current policy
in the Program Procurement Guidelines/Procurement Agreement established the
general eligibility requirements, but did not clearly establish procedures for implementing
it. For instance, the guidelines did not clearly identify each of the lists of ineligible
contractors that should be used by the MCAs in vetting contractors and the method for
documenting the vetting results. As a result of the identified weaknesses, MCC cannot
be assured that the MCAs are awarding contracts to only eligible parties. A
comprehensive MCC policy on vetting contractors would highlight the importance of
ensuring contractor eligibility and would assist the MCAs in properly carrying out their
review of potential contractors (see page 5).

Also, the vetting lists used by one of the MCAs differed between the procurement and
fiscal functions, whereas a parallel system of eligibility checks should exist. Without the
same lists being used during the vetting process, an ineligible contractor could
potentially receive payment even if barred from doing so (see page 8). Finally, none of
the three MCAs had a Procurement Operations Manual in place to define internal
controls within procurement operations and among the responsible parties. Chief
among the controls to be addressed in such a manual was the process for checking
contractor eligibility (see page 9).

The U.S. Agency for International Development’s OIG is making five recommendations
to address the three issues identified during its audit. The recommendations focus on
strengthening the contractor eligibility process by recommending that MCC develop a
comprehensive written policy defining the vetting process to be carried out by the MCAs
(see page 8), requiring consistent vetting criteria be used by the procurement and fiscal


                                                                                         1
functions (see page 9), and analyzing the costs and benefits of establishing
Procurement Operations Manuals (see page 10).




                                                                          2
BACKGROUND

The Millennium Challenge Corporation (MCC) was established in January 2004 by the
Millennium Challenge Act of 2003 to provide assistance to eligible developing countries
that rule justly, invest in their people, and encourage economic freedom. This assistance
is provided through compacts1 between MCC, acting as a U.S. Government agency, and
recipient countries’ governments. As of the end of fiscal year 2007, MCC had signed
Compacts with 14 countries.

Countries with signed Compacts solicit, award, and administer procurements for goods,
works, and services based on the programs in their Compacts. These procurements are
awarded and administered by the country through an “accountable entity” also known as
the Millennium Challenge Account (MCA), the organization established by the country to
manage the programs identified in its compact. MCC is not a party to these contracts.

The MCAs are required to ensure that all procurements with MCC funding comply with
MCC procurement principles, which include open, fair, and competitive procedures used
in a transparent manner; solicitations based on clear and accurate descriptions of goods
and/or services to be acquired; contracts awarded only to qualified and capable
suppliers/contractors; and only a commercially reasonable price paid for goods and/or
services. Specifically, MCA procurements are required to be conducted according to
policies and procedures set forth in the MCC Program Procurement Guidelines. MCC
issued additional guidance papers for clarification on the Program Procurement
Guidelines or for areas not covered in the Guidelines, such as the process for leasing
office space by the MCAs.

Part of the procurement process includes MCA verification of contractors’ eligibility to
participate in MCC-funded procurements by checking the contractors’ names against
ineligibility lists. A contractor would be ineligible for MCA contracts if its name appears
on any one of the lists. One of the purposes for verifying eligibility status of contractors
and service providers is to ensure that MCC and its partner countries abide by
applicable U.S. and international laws against providing financing and assistance to
terrorists. Below are the lists from the Program Procurement Guidelines and MCC
Guidance on Preparing the Technical Evaluation Reports that MCC required the MCAs
to check for each contractor to determine contractor eligibility.

•	 World Bank Debarred List: This list contains names of contractors/service providers
   that were found to have engaged in fraudulent, corrupt, collusive, or coercive
   practices, and have been declared ineligible to be awarded contracts.

•	 The Excluded Party List System (EPLS): The U.S. General Services Administration
   maintains this list, which includes information regarding entities debarred, proposed
   for debarment, suspended, excluded, or otherwise declared ineligible to receive
   federal contracts, certain subcontracts, and certain federal assistance and benefits.



1
 A Compact is a multiyear agreement between the MCC and an eligible country to fund specific
programs targeted at reducing poverty and stimulating economic growth.


                                                                                          3
•	 The U.S. Department of Treasury’s Office of Foreign Assets Control (OFAC) List:
   This list includes identifying information on individuals and businesses that have
   been sanctioned (for economic or trade reasons) based on U.S. foreign policy and
   national security goals. The U.S. Executive Order on Terrorist Financing (E.O.
   13244, “Blocking Property and Prohibiting Transactions with Persons Who Commit,
   Threaten to Commit, or Support Terrorism”) bars assistance to individuals or
   organizations with terrorist links and designates the responsibility for informing other
   entities in the public and private sector to OFAC.


AUDIT OBJECTIVE
This audit was conducted to determine whether MCC and selected Compact countries
were complying with established procurement requirements, and in particular, the
requirements for contractor eligibility for MCA contracts.

This audit was conducted to answer the following question:

Did the Millennium Challenge Corporation (MCC) and its Compact countries
comply with MCC procurement requirements?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                         4
AUDIT FINDINGS

The three MCAs tested--Ghana, Armenia, and Honduras--complied with the selected
key procurement provisions in MCC’s Program Procurement Guidelines/Procurement
Agreement by advertising bidding opportunities, issuing requests for proposals,
conducting independent evaluation of the proposals, and documenting contracting
actions (see Appendix III). However, while each of the MCAs was aware of MCC
contractor eligibility guidance, the MCAs only partially complied with the guidance. For
instance, the MCAs could not satisfactorily demonstrate that contracts selected for OIG
testing had been vetted against each of the sources listed in the MCC requirements.
Detailed below are the specific findings and recommendations resulting from the OIG’s
audit work performed to determine compliance with procurement requirements.


Contractor Vetting Process Should Be Improved

  Summary: OIG visits to three MCAs showed that more can be done to help ensure
  that an effective vetting process is carried out. MCC required the MCAs to check
  each contractor against the following lists to determine contractor eligibility: The
  World Bank Debarred list; The Excluded Party List System (EPLS); and The U.S.
  Department of Treasury’s Office of Foreign Assets Control (OFAC) List. The MCAs
  did not use each of the prescribed vetting lists from the Program Procurement
  Guidelines and MCC Guidance on Preparing Technical Evaluation Reports or did
  not sufficiently document the lists checked. Also, not all contractors were vetted,
  and vetting was not always done immediately before awarding the contract. The
  U.S. Government Accountability Office (GAO) Standards for Internal Control in the
  Federal Government discusses general guidance on internal controls that would
  help provide reasonable assurance that management’s aims are being achieved.
  For contractor vetting, MCC management’s aim should be to help ensure that only
  eligible firms received MCA contracts. To do so, GAO points to specific control
  activities—such as policies, procedures, techniques, and mechanisms—that can be
  designed and instituted by management. The deficiencies in the contractor vetting
  process occurred because MCC did not have a comprehensive policy on contractor
  vetting in place, although it was conducting research to develop and institute a
  policy for use by the MCAs. MCC’s lack of comprehensive policy and procedures
  potentially could allow ineligible firms or individuals to receive MCA contracts.

MCC required the MCAs to check each contractor against the following lists to determine
contractor eligibility:

•	 World Bank Debarred List: This list contains names of contractors/service providers
   that were found to have engaged in fraudulent, corrupt, collusive, or coercive
   practices, and have been declared ineligible to be awarded contracts.
•	 The Excluded Party List System (EPLS): The U.S. General Services Administration
   maintains this list, which includes information regarding entities debarred, proposed
   for debarment, suspended, excluded, or otherwise declared ineligible to receive
   federal contracts, certain subcontracts, and certain federal assistance and benefits.



                                                                                         5
•	 The U.S. Department of Treasury’s Office of Foreign Assets Control (OFAC) List:
   This list includes identifying information on individuals and businesses that have
   been sanctioned (for economic or trade reasons) based on U.S. foreign policy and
   national security goals. The U.S. Executive Order on Terrorist Financing (E.O.
   13244, “Blocking Property and Prohibiting Transactions with Persons Who Commit,
   Threaten to Commit, or Support Terrorism”) bars assistance to individuals or
   organizations with terrorist links and designates the responsibility for informing other
   entities in the public and private sector to OFAC.

The MCAs did not use each of the prescribed vetting lists from the Program
Procurement Guidelines and MCC Guidance on Preparing Technical Evaluation Reports
or did not sufficiently document the lists checked. An analysis of the contractor vetting
process among the three MCAs the OIG visited revealed the following issue areas that
should be addressed to improve the effectiveness of the process. These issue areas
involve clearly defining and documenting (1) the required vetting lists; (2) the method for
documenting the vetting results; (3) which contracting methods require bidder vetting; (4)
the points in the procurement process when vetting should occur; and (5) the procedures
to be followed if a contractor appears on any of the ineligibility lists.

Interviews conducted with the MCAs showed that there was not always a clear
understanding of the lists required to be used during the vetting process. When
procurement and fiscal accountability officials were asked to specifically identify the lists
that were required to be used during the vetting process, some were unable to identify
the required lists or indicated that only the Excluded Party List System (EPLS) was used.

Further, the OIG could not independently verify which vetting lists were checked during
contract vetting. In many cases, the specific lists used were not documented in the
contract files. The file documentation that did exist typically consisted of the evaluation
report with a footnote generally describing the lists checked (i.e., World Bank and U.S.
Government), but did not specify which U.S. Government lists were used to verify
contractor eligibility. In other instances, the file documentation consisted of a computer
printout from the EPLS showing search results. Procurement officials also reported
checking other lists as well, but did not have documentation supporting their assertions.
Also, one of the MCAs evidenced its vetting of contractors by entering a date on the
Procurement Performance Report signifying when the firm was found to be eligible, but it
had no support in the files substantiating the lists checked and the reported date to
reach this conclusion.

The OIG also determined that the MCAs did not determine contractor eligibility for each
contracting method or contract type. For example, contractor vetting occurred in Quality
and Cost-based Selection contracting methods, but vetting did not occur in other
contracting methods such as Shopping. Shopping is a procurement method based on
comparing price quotations from several sources, with a minimum of three, to assure
competitive prices. Further, the contract documents involved in Shopping, such as the
Invitation to Quote, or lease contract document, did not contain the typical references to
the eligibility provisions. Vetting also did not occur when leasing space for an MCA.2


2
  An MCC official explained that “leasing” space is not technically defined as procurement, and
therefore the eligibility requirements in the Program Procurement Guidelines and related
procurement documents did not apply. Nevertheless, a lease is a contractual relationship


                                                                                             6
In addition, individual procurement officials within the MCAs checked contractor eligibility
at differing times during the procurement process. At one MCA, the procurement official
checked eligibility during proposal evaluation, which could result in the evaluation panel
expending resources on reviewing an ineligible contractor. As explained to the OIG
during its site visits, the MCAs typically have difficulty obtaining qualified and
independent evaluation panel members; therefore, the optimal use of their time becomes
even more important. In another instance, a procurement official did not reconfirm
contractor eligibility before awarding the contract to the selected contractor after an initial
confirmation, which could result in an ineligible contractor receiving a contract award.

Finally, the MCC did not have guidance defining the course of action should an MCA
contractor be identified as ineligible. Guidance was lacking for appropriate measures to
take with regard to the handling of payments or contract termination. An MCA official
told us that he was not sure which officials at MCC should be contacted or how ineligible
contractors should be handled. He further stated that his course of action would be to
call MCC for guidance—a prudent action, but one that could result in inconsistent
advice. A defined course of action would help ensure that the MCAs treat contractors
consistently and fairly and would help further the transparency of the eligibility process.

MCC established its policies and procedures for use by the MCAs in conducting
procurements in the Program Procurement Guidelines, dated May 22, 2007, and
previously in individual country Procurement Agreements. Eligibility Section 1.8
provides the exceptions for contracting for MCC-funded projects. These exceptions
include:

    Any person or entity that has been blacklisted from participation in procurements
    funded with The World Bank assistance or debarred or suspended from
    participation in procurements funded by the United States Federal Government
    or otherwise prohibited by applicable United States law or Executive Order or
    United States policies including under any then-existing anti-terrorist policies
    shall be excluded from procurements awarded under the Compact.

While no U.S. Government-wide policy and procedures on vetting of contractors
currently exist, the GAO Standards for Internal Control in the Federal Government
discusses general guidance on internal controls that would help provide reasonable
assurance that management’s aims are being achieved. For contractor vetting, MCC
management’s aim should be to help ensure that only eligible firms received MCA
contracts. GAO points to control activities—such as policies, procedures, techniques,
and mechanisms—that can be designed and instituted by management to help in this
endeavor.

The Compacts between the MCC and the grantee governments establish MCC’s
oversight role in the appropriate expenditure of the grants and provide penalties for
inappropriate expenditures, such as those that would violate U.S. law or policy or would
be contrary to U.S. national security interests. The deficiencies in the contractor vetting
process were a result of MCC’s lack of a comprehensive policy on contractor vetting,
even though it was conducting research to develop and institute a policy for use by the

between the MCAs and a contractor that involves MCA funding, and it is prudent that the MCAs
verify the eligibility of the lessor and that these actions should be a policy requirement as well.


                                                                                                 7
MCAs. In developing its policy and procedures, MCC should address (1) the vetting lists
that are required to be checked by MCA officials, (2) the method for documenting the
vetting results, (3) which contracting methods require bidder vetting, (4) the specific
points during the procurement process when the vetting lists need to be checked, and
(5) the procedures to be followed in the event that a contractor appears on the
ineligibility lists. Currently, MCC vetting criteria are fragmented in numerous documents,
and at times are incongruent and lack specificity. Criteria are found, for example, in
Procurement Agreements, Program Procurement Guidelines, Guidance on Preparing
the Technical Evaluation Report, Fiscal Accountability Plan, and contract clauses on
contractor eligibility.

Without a clearly defined and documented vetting process, MCC management cannot
be assured that the MCAs are effectively vetting their contractors. The existing
weaknesses within the vetting process could potentially allow ineligible firms or
individuals to receive U.S. taxpayer monies. The weaknesses could also result in
reputation risk (i.e., negative public opinion regarding the business practices employed
by MCC and the MCAs), which in turn could potentially result in a loss of funding for
these organizations. The OIG is making three recommendations to strengthen the
vetting process, improve consistency in the procurement documents regarding vetting
requirements, and enhance MCC monitoring of MCA vetting.

    Recommendation No. 1: We recommend that the vice president, Department of
    Compact Implementation, develop a comprehensive written policy and issue it to
    the Millennium Challenge Account Implementing Entities detailing (a) the
    required lists for use in vetting contractors, (b) the method for documenting in
    the contract files the vetting process undertaken and the results, (c) the
    contractors required to be vetted, (d) the points during the contracting process
    when vetting will occur, and (e) the actions to be taken when an individual/firm is
    found to be ineligible.

    Recommendation No. 2: We recommend that the vice president, Department of
    Compact Implementation, reconcile the Procurement Agreement/Program
    Procurement Guidelines, contract clauses, and related documents so that the
    vetting requirements are consistent and the vetting requirements are clearly
    identified.

    Recommendation No. 3: We recommend that the vice president, Department of
    Compact Implementation, revise the Procurement Performance Report to
    identify the points during the contracting process when vetting should occur to
    enable the Millennium Challenge Corporation to better monitor vetting activity.


MCC Criteria for Vetting
of Contractors Should Be Consistent
When vetting contractors, one of the MCAs was not required to use the same criteria to
determine contractor eligibility for MCA contracts and for payment of outstanding
contractor invoices. Specifically, the Procurement Agreement/Program Procurement
Guidelines required that procurement officials vet contractors against certain lists,
including the World Bank Debarred List, but the Fiscal Accountability Plan did not require



                                                                                          8
that the World Bank Debarred List be used when processing contractor payments. The
World Bank Debarred List identifies firms and individuals that are ineligible to be
awarded contracts (and likewise receive payment) because they were found to have
violated the fraud and corruption provisions of the Procurement Guidelines.

U.S. GAO Standards for Internal Control in the Federal Government describes internal
control activities that help ensure that management’s directives are carried out. Control
activities are the policies, procedures, techniques, and mechanisms that enforce
management’s directives. In this instance, MCC should have a control in place to help
ensure the consistency of the vetting activities being carried out by the procurement and
fiscal accountability functions. Such a control can help ensure the proper execution of
vetting activities. An MCC official stated that a weakness in document control over
revisions of the procurement and fiscal accountability documents resulted in the
inconsistency in vetting requirements.

Inconsistencies in the process for vetting MCA contractors increase the risk that the
MCAs could pay contractors who have previously committed fraud or corrupt practices
or are otherwise ineligible to receive U.S. taxpayer monies.

    Recommendation No. 4: We recommend that the vice president, Department of
    Compact Implementation, reconcile and establish consistent vetting
    requirements between the procurement and fiscal accountability functions.


MCC Should Evaluate the Need for
Procurement Operations Manuals
None of the three MCAs visited by OIG had Procurement Operations Manuals (POMs) in
place. Procurement agents are typically required to complete POMs as part of their
contracted services. MCC encouraged the development of POMs in its MCC Guidance
on Preparing the Procurement Operations Manual, issued May 11, 2007, and provided it
to MCA participants during the MCC Procurement College held during May 2007.
According to MCC guidance, the POM:

    provides guidelines for the execution of procurement activities by describing the
    tasks and procedures to be executed to satisfy the MCC Program Procurement
    Guidelines by establishing the controls to be applied within the structure of the
    MCA entity and by defining the persons in charge of these controls in each step
    of the process. The manual also serves as an operational and reference tool for
    use on a daily basis by all parties to improve the effectiveness and transparency
    of the actions undertaken.

The guidance detailed specific items that should be included in the POM. One of the
tasks/responsibilities cited in the guidance was checking contractor eligibility
requirements, including who will be responsible for conducting the check, how the
sources will be checked, how the outcomes will be recorded, and when the requirements
will be checked. It also stated that the Procurement Agent Agreement established the
deadline for the POM’s completion, and MCC required that the procurement agent
submit the POM to the MCA and MCC for approval.




                                                                                        9
The MCAs cited various reasons for the incomplete POMs, including unsatisfactory
drafts of the POM that required revision. An MCA official pointed out that he believes
that MCA’s seasoned procurement officials already provide a compensating control,
thereby reducing the need for a manual.

MCC encouraged the use of the POM as a tool to augment the Program Procurement
Guidelines, and intended the MCAs to develop and adapt the POM to suit the operating
environments of specific MCAs. The OIG believes that POMs help mitigate the potential
risk for disruption in the continuity of MCA operations that result from staffing turnover,
nonstandard approaches to procurements, and inconsistent actions by procurement
officials. Nevertheless, interviews with MCC and the MCA personnel indicated that the
POMs are not viewed as necessary; the fact that the MCAs also have been conducting
procurement operations for some time without POMs furthers that view. The
development of POMs has a cost in terms of MCA and MCC staff time in addition to the
cost of the procurement agent, and MCC should determine whether the related benefit is
warranted.

    Recommendation No. 5: We recommend that the vice president, Department of
    Compact Implementation, conduct and document an analysis to determine
    whether the Millennium Challenge Account Procurement Operations Manuals
    provide added benefit in terms of operational controls, user necessity, and
    succession planning in relation to their associated costs. Additionally, if it
    determines that Procurement Operations Manuals would provide added controls
    at a reasonable cost, the Millennium Challenge Corporation should issue
    specific guidance to the Millennium Challenge Account Implementing Entities
    requiring that Procurement Operations Manuals be prepared by them or their
    agents.




                                                                                        10
EVALUATION OF
MANAGEMENT COMMENTS
The Millennium Challenge Corporation (MCC) provided written comments to our draft
report that are included in their entirety in Appendix II. In its response, the MCC agreed
with each of the five recommendations in the draft report.

In response to Recommendation No. 1, MCC agreed with the recommendation and
completed a comprehensive written policy entitled Guidance on Excluded Parties
Verification Procedures in MCA Entity Program Procurements. MCC stated that the
policy identifies each of the mandatory lists that are to be used by the Millennium
Challenge Accounts (MCAs) when vetting contractors and that an expanded number of
lists are required to be used in the process. To aid in documenting the results of the
MCA vetting process, MCC stated that it developed a verification sheet for use by the
MCAs. MCC also stated that the policy requires that the contractor eligibility verification
procedures must be performed for all bids and proposals, including shopping and
leases, and for all contractors, key personnel, and subcontractors before and during the
contract term. It further defined when vetting will occur and the actions to be taken if a
firm is found to be ineligible. Finally, MCC reported issuing the policy to MCA staff, MCC
Resident Country Director teams, and MCC Headquarters officials. Based on these
actions, we consider that a management decision has been reached for this
recommendation.

In response to Recommendation No. 2, MCC agreed with the recommendation and
stated that the Guidance on Excluded Parties Verification Procedures in MCA Entity
Program Procurements adjusted the Program Procurement Guidelines and all
documents used and referenced by the MCAs so vetting requirements are consistent
and clearly identified. Based on these actions, we consider that a management decision
has been reached for this recommendation.

In response to Recommendation No. 3, MCC agreed with the recommendation and
stated that it is in the process of reviewing the Procurement Performance Report to
address the OIG’s concern and for further improving the report. MCC anticipates that its
efforts will be completed by April 2008. Based on these actions, we consider that a
management decision has been reached for this recommendation.

In response to Recommendation No. 4, MCC agreed with the recommendation and
stated that it directed the Guidance on Excluded Parties Verification Procedures in MCA
Entity Program Procurements to the Procurement Agent and Fiscal Agent at the MCA
operations. MCC reported that the guidance will be used by the agents in their
operations. Based on these actions, we consider that a management decision has been
reached for this recommendation.

In response to Recommendation No. 5, MCC agreed with the recommendation and
stated that it is in the process of conducting a cost/benefit analysis on the requirement
for MCA Procurement Operations Manuals. It anticipates that a decision will be reached




                                                                                        11
by June 2008 as to whether the manual is warranted. Based on these actions, we
consider that a management decision has been reached for this recommendation.




                                                                           12
                                                                            APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The assistant inspector general for the Millennium Challenge Corporation (MCC)
conducted this audit of MCC and Millennium Challenge Account (MCA) compliance with
procurement requirements in accordance with generally accepted government auditing
standards.

In conducting this audit, the audit team assessed MCC and MCA adherence to select
requirements of the procurement guidelines (including vetting contractor eligibility to
receive MCA contracts) for contracts awarded by the MCAs during calendar years 2006
and 2007. The audit fieldwork was conducted from July 24 through October 30, 2007, at
MCC Headquarters in Washington, DC, and at the MCAs in Accra, Ghana; Yerevan,
Armenia; and Tegucigalpa, Honduras.

Methodology
In planning and performing the audit work, the audit team conducted interviews with
MCC officials in the Department of Accountability/Fiscal Accountability as well as the
Office of General Counsel. The team also met with Washington, DC, USAID officials to
obtain an understanding of the process used to review contractor eligibility. During the
site visits, interviews were held with the MCC resident country directors and/or deputy
resident country directors; MCA officials, including the chief executive officers,
procurement directors, and legal counsel; and MCA procurement agents and fiscal
agents. These interviews were conducted to obtain information on various subjects
relevant to the audit, for example, procurement operations, including organizational
structure, roles and responsibilities, procurement guidelines, contracting activity,
awarded contracts, and the contractor eligibility process.

In addition, the audit team performed the following steps:

•	 Judgmentally selected 45 contracts of an estimated 263 contracts for review from
   contracting reports provided by MCC officials, including competitive and single-
   source selection contracts, to determine whether the MCAs complied with key
   procurement requirements. Reviewed approximately $146 million of approximately
   $160 million in total contracts. The requirements tested included advertising, request
   for proposals, and proposal evaluation. It should be noted that the documents related
   to contracts valued at less than $100,000 are permitted by the requirements to be
   written in the country’s native language, so in certain cases the audit team members
   obtained document translation assistance from MCA officials.

•	 Reviewed contract files to identify the work performed by procurement officials to
   determine contractor eligibility to receive MCA contracts.

•	 Reviewed invoices to identify the work performed by the fiscal agents to determine
   contractor eligibility for payment by MCA.




                                                                                      13
                                                                        APPENDIX I 



•	 Traced dates found in the contracting files to the Procurement Performance Reports
   used by MCC to monitor MCA contracting activity on a spot-check basis to determine
   data accuracy.




                                                                                  14
                                                                            APPENDIX II 




MANAGEMENT COMMENTS




                                     MEMORANDUM

DATE:            February 21, 2008

TO:              John M. Phee
                 Assistant Inspector General, MCC

FROM:            Michael Casella /s/
                 Acting Vice President,
                 Department of Administration and Finance, MCC

SUBJECT:         Audit of Compliance with Procurement Requirements
                 Audit Report No. M-000-008-02-P


I have reviewed the audit findings contained in the referenced report which pinpoints
areas of improvement to our Agency procurement guidelines and practices. I fully agree
with each recommendation. Although the report’s findings were based on analysis and
sample techniques across only three MCA operations, namely Ghana, Armenia and
Honduras, the areas of concern are consistent with my Agency’s view in developing
sound practices to maintain the strongest compliance with the US governing laws and
practices.

The first audit finding under the subject title Contractor Vetting Process Should Be
Improved, includes three recommendations based upon review of the MCA’s
procurement practices.

         Recommendation No 1: We recommend that the vice president, Department of
Compact Implementation, develop a comprehensive written policy and issue it to the
Millennium Challenge Account Implementing Entities detailing (a) the require lists for use
in vetting contractors, (b) the method of documenting in the contract files the vetting
process undertaken and the results, (c) the contractors required to be vetted, (d) the
points during the contracting process when vetting will occur, and (e) the actions to be
taken when an individual/firm is found to be ineligible.

        MCC Action taken: The vice president, Department of Compact Implementation
has completed a comprehensive written guidance policy entitled “Guidance on Excluded
Parties Verification Procedures in MCA Entity Program Procurements” and is posted to
the MCC website under



                                                                                       15
                                                                              APPENDIX III 



www.mcc.gov/procurement/partnercountries/guidancepapers.php. This guidance has
been widely promulgated to the MCA staff principles, Resident Country Director teams
and internal MCC Accountability staff to ensure that all parties are required to adhere to
this guideline and is aware of its requirements. Contained in this guidance is the
requirement for vetting procedures to be followed for “all bids and proposals” which
include shopping and leases.

       (a) Required List for vetting contractors:

This guidance paper not only adopts the IG recommendation of mandatory check to vet
contractors against the World Bank Debarred List; the Excluded Party List System
(EPLS); and the US Department of Treasury’s Office of Foreign Assets Control (OFAC)
List it goes a step further and also now compels MCA entities to further check US
Department of Commerce, Bureau of Industry and Security, Denied Persons List (DPL);
US Department of Commerce, Bureau of Industry and Security, the Entity List; US State
Department directorate of Defense Trade Controls, Debarred Parties List; and the US
State Department, Terrorist Exclusion List.

       (b) Method of documenting in the contract files the vetting process
           undertaken and the results:

The guidance paper provides the website link for each mandatory list to be checked for
eligibility verification. It is noted that two of the lists, EPLS and the World Bank debarred
list are searchable and provide a return of a positive or negative result which must be
printed and retained. The other lists do not provide the convenience of a return result in
a simple one sheet copy, but rather will return a listing for each search which must be
verified. We instruct the MCAs to annotate the date on the attached verification sheet
for these searches.

       (c) The contractors required to be vetted:

The guidance paper clearly states that eligibility verification procedures must be
performed during the evaluations of all bids and proposals for the MCA entity.
Specifically, each contractor, key personnel and subcontractors must be verified prior to
entering into any form of contract and continuing throughout the contract term
periodically before issuing any payment to the contractor.

       (d) The points during the contracting process when vetting will occur:

The guidance clearly states there could be two phases of this vetting, dependent upon
the complexity of the procurement action. In complex and multi-stage procurements, the
vetting will be performed during the beginning of the bid or proposal evaluation process.
After completion by the technical review or evaluation panel and selection of the
contractor to be awarded, a final vetting process will take place prior to the award of the
contract. This vetting will include key personnel and subcontractors as well.

       (e) The actions to be taken when an individual/firm is found to be ineligible:

Instructions in the guidance document are clear on this issue. If a positive adverse report
is found on the contractor, the firm will be deemed to be ineligible and its bid or proposal
will be rejected and the next eligible contractor will be examined for full eligibility


                                                                                          16
                                                                             APPENDIX III 



requirements. If the adverse report is returned on a proposed key personnel, the MCA
shall either reject the bid or proposal or permit the proposed contractor to replace this
person.

       Recommendation No. 2: We recommend that the vice president,
Department of Compact Implementation, reconcile the Procurement
Agreement/Program Procurement Guidelines, contract clauses, and related
documents so that the vetting requirement are consistent and the vetting
requirements are clearly identified.

All corresponding Program Procurement Guidelines and documents used and
referenced by the MCAs are adjusted for this new guidance directive.

        Recommendations No. 3: We recommend that the vice president,
Department of Compact Implementation, revise the Procurement Performance
Report to identify the points during the contracting process when vetting should
occur to enable the Millennium Challenge Corporation to better monitor vetting
activity.

The Procurement Performance Report contains a specific column available for affirming
the full vetting process in order to ensure that awareness of the vetting process has
taken place prior to the contract award. The Procurement Directors and Procurement
Advisors , who monitor these reports, are in the process of reviewing this report for
further improvements and will take further steps not later than April 2008 to ensure the
vetting procedures are fully captured in the report format.

  The second audit finding under MCC Criteria for Vetting of Contractors Should be
Consistent includes one recommendation.

       Recommendation No.4: We recommend that the vice president,
Department of Compact Implementation, reconcile and establish consistent
vetting requirements between the procurement and fiscal accountability
functions.

The guidance paper has been directed to both the Procurement Agent and the Fiscal
Agent at the MCA operations. The Fiscal Agent has been instructed through a broad
email promulgation of this new policy that they must incorporate this into their Fiscal
Accountability Plan for operations. The attachment will be used by both the
Procurement Agent and the Fiscal Agent and will be retained in each agents’ respective
files for audit compliance purposes.

  The third audit finding under MCC Should Evaluate the Need for Procurement
Operations Manual include one recommendation.

        Recommendation No. 5: We recommend that the vice president,
Department of Compact Implementation, conduct and document an analysis to
determine whether the Millennium Challenge Account Procurement Operations
Manuals provide added benefit in terms of operations controls, user necessity,
and succession planning in relation to their associated costs. Additionally, if it
determined that Procurement Operations Manuals would provide added controls
at a reasonable cost, the Millennium Challenge Corporation should issue specific


                                                                                            17
                                                                           APPENDIX III 



guidance to the Millennium Challenge Account implementing Entities requiring
that Procurement Operations Manuals be prepared by them and their agents.

The Accountability section has started the process of this analysis in considering the
cost benefit of requiring the procurement operations manuals at this point in time for
each of the implementation Compact Countries. We plan by June 2008 to come to a
decision on the benefit vs. costs of this requirement and implement a procurement
operations manual if warranted.




                                                                                         18
                                                                                           APPENDIX III



LIST OF CONTRACTS
REVIEWED
Results of review of selected key provisions of MCC’s Program Procurement
Guidelines/Procurement Agreement

                          Procurement
Sample     Contract         Method                         Firms           Evaluated by           Procurement
Number     Amount         Competitive?   Advertised?     Solicited?     Independent Panel?        Documented?
      1      3,279,000        Yes            Yes            Yes                  Yes                  Yes
      2     25,532,820        Yes            Yes            Yes                  Yes                  Yes
      3    50,354,670         Yes            Yes            Yes        Not Applicable (ongoing)       Yes
      4     21,420,000        Yes            Yes            Yes                  Yes                  Yes
      5          7,500    Not Required   Not Required   Not Required        Not Required              Yes
      6        183,000        Yes        Not Required       Yes                  Yes                  Yes
      7         29,850    Not Required   Not Required   Not Required        Not Required              Yes
      8        500,000        Yes            Yes            Yes        Not Applicable (ongoing)       Yes
      9          5,000        Yes        Not Required       Yes                  Yes                  Yes
     10          8,000    Not Required   Not Required   Not Required        Not Required              Yes
     11         35,000    Not Required   Not Required   Not Required        Not Required              Yes
     12         40,000        Yes            Yes            Yes                  Yes                  Yes
     13         44,000        Yes        Not Required       Yes                  Yes                  Yes
     14         50,000        Yes        Not Required       Yes                  Yes                  Yes
     15          3,000        Yes        Not Required       Yes                  Yes                  Yes
     16         14,000        Yes        Not Required       Yes                  Yes                  Yes
     17         15,670        Yes        Not Required       Yes                  Yes                  Yes
     18      1,670,000        Yes            Yes            Yes                  Yes                  Yes
     19        800,000        Yes            Yes            Yes        Not Applicable (ongoing)       Yes
     20        140,000        Yes            Yes            Yes                  Yes                  Yes
     21        450,000        Yes            Yes            Yes        Not Applicable (ongoing)       Yes
     22      1,756,400        Yes            Yes            Yes                  Yes                  Yes
     23        200,000        Yes            Yes            Yes                  Yes                  Yes
     24        618,000        Yes            Yes            Yes                  Yes                  Yes
     25        974,800        Yes            Yes            Yes        Not Applicable (ongoing)       Yes
     26      2,625,300        Yes            Yes            Yes        Not Applicable (ongoing)       Yes
     27         25,154        Yes        Not Required       Yes                  Yes                  Yes
     28         34,545        Yes        Not Required       Yes                  Yes                  Yes
     29          3,709        Yes        Not Required       Yes                  Yes                  Yes
     30         20,455        Yes        Not Required       Yes                  Yes                  Yes
     31    18,477,455         Yes            Yes            Yes                  Yes                  Yes
     32         24,379        Yes        Not Required       Yes                  Yes                  Yes
     33         23,485        Yes        Not Required       Yes                  Yes                  Yes
     34          2,227        Yes        Not Required       Yes                  Yes                  Yes
     35        253,333        Yes        Not Required       Yes                  Yes                  Yes
     36   Not Available   Not Required   Not Required   Not Required        Not Required              Yes
     37          1,994    Not Required   Not Required   Not Required        Not Required              Yes



                                                                                                     19

                                                                                                       APPENDIX III 



        38      5,240,000          Yes               Yes              Yes         Not Applicable (ongoing)            Yes
        39         73,900          Yes               Yes              Yes         Not Applicable (ongoing)            Yes
        40      5,285,000          Yes               Yes              Yes         Not Applicable (ongoing)            Yes
        41      2,945,800     Not Required      Not Required      Not Required    Not Applicable (ongoing)            Yes
        42      2,107,600     Not Required      Not Required      Not Required    Not Applicable (ongoing)            Yes
        43       180,000      Not Required      Not Required      Not Required    Not Applicable (ongoing)            Yes
        44       136,000      Not Required      Not Required      Not Required          Not Required                  Yes
        45         49,000          Yes          Not Required          Yes                    Yes                      Yes
Total        $145,640,046


Notes
(1) Contract Amount includes estimated amounts for procurements that were not finalized at the time of our audit, i.e., ongoing.
(2) Certain contracting methods, such as single source selection, by definition are non-competitive procurements. As such,
typical competitive requirements, for example, advertising are not required.




                                                                                                                      20

U.S. Agency for International Development 

        Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

             Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
